<html>
<title> - THE 100% TEMPORARY DISABILITY RATING: AN EXAMINATION OF ITS EFFECTIVE USE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 THE 100% TEMPORARY DISABILITY RATING: AN EXAMINATION OF ITS EFFECTIVE 
                                  USE 

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, FEBRUARY 5, 2013

                               __________

                            Serial No. 113-2

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

78-764 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001


                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
DAVID P. ROE, Tennessee              CORRINE BROWN, Florida
BILL FLORES, Texas                   MARK TAKANO, California
JEFF DENHAM, California              JULIA BROWNLEY, California
JON RUNYAN, New Jersey               DINA TITUS, Nevada
DAN BENISHEK, Michigan               ANN KIRKPATRICK, Arizona
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MARK E. AMODEI, Nevada               GLORIA NEGRETE MCLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               DINA TITUS, Nevada, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
MARK AMODEI, Nevada                  BETO O'ROURKE, Texas
PAUL COOK, California                RAUL RUIZ, California
                                     GLORIA NEGRETE MCLEOD, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.




                            C O N T E N T S

                               __________

                            February 5, 2013

                                                                   Page

The 100% Temporary Disability Rating: An Examination Of Its 
  Effective Use..................................................     1

                           OPENING STATEMENTS

Hon. Jon Runyan, Chairman, Disability Assistance and Memorial 
  Affairs........................................................     1
    Prepared Statement of Hon. Runyan............................    22
Hon. Dina Titus, Ranking Minority Member, Subcommittee on 
  Disability Assistance and Memorial Affairs.....................     2
    Prepared Statement of Hon. Titus.............................    22

                               WITNESSES

Rick Weidman, Executive Director for Policy and Government 
  Affairs, Vietnam Veterans of America...........................     4
    Prepared Statement of Mr. Weidman............................    23
Linda Halliday, Assistant Inspector General for Audits and 
  Evaluations, Office of the Inspector General, U.S. Department 
  of Veterans Affairs............................................     6
    Prepared Statement of Ms. Halliday...........................    25
    Accompanied by:

      Larry Reinkemeyer, Director, Kansas City Audit Operations 
          Division, Office of the Inspector General, U.S. 
          Department of Veterans Affairs
      Brent Arronte, Director, San Diego Benefits Inspection 
          Division, Office of the Inspector General, U.S. 
          Department of Veterans Affairs
Diana Rubens, Deputy Under Secretary for Field Operations, 
  Veterans Benefits Administration, U.S. Department of Veterans 
  Affairs........................................................    13
    Prepared Statement of Ms. Rubens.............................    30

                        STATEMENT FOR THE RECORD

Mr. Carl Blake, National Legislative Director, Paralyzed Veterans 
  of America.....................................................    32


 THE 100% TEMPORARY DISABILITY RATING: AN EXAMINATION OF ITS EFFECTIVE 
                                  USE

                       Tuesday, February 5, 2013

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:53 p.m., in 
Room 334, Cannon House Office Building, Hon. Jon Runyan 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Runyan, Bilirakis, Amodei, Cook, 
Titus, and O'Rourke.

              OPENING STATEMENT OF CHAIRMAN RUNYAN

    Mr. Runyan. Good afternoon and welcome everyone. This first 
oversight hearing of the Subcommittee on Disability Assistance 
and Memorial Affairs for the 113th Congress will now come to 
order.
    I would like to begin this hearing by welcoming all the 
Members of the Subcommittee, including our new Ranking Member, 
Congresswoman Titus.
    Ms. Titus. Thank you.
    Mr. Runyan. You're welcome. I am honored to have the 
opportunity to continue chairing the DAMA Subcommittee this 
Congress and look forward to working with all of you. It is my 
hope that we will all come together in a bipartisan way and 
share ideas to best serve our Nation's veterans and find 
practical solutions to the issues before this Subcommittee.
    Our hearing topic today will focus on temporary total 
disability ratings. Temporary total disability ratings serve a 
very important function in the benefits scheme. This type of 
rating is assigned when it is established by medical evidence 
that surgery or certain treatment was performed necessitating a 
period of recovering during which the veteran cannot work; 
however, according to a January 2011 report by the VA Office 
and the Inspector General, VBA has not been correctly 
processing and monitoring such claims.
    As a result, the OIG stated that since January 1993 VBA has 
overpaid veterans a net amount of $943 million. The OIG also 
stated that without timely action, the VBA could overpay 
veterans a projected 1.1 billion over the next five years. 
These numbers are troubling to say the least.
    As all of us here today are aware, our Nation's fiscal 
health is one of this Congress' top priorities. Part of this 
process includes trimming government spending and eliminating 
government waste.
    It is my hope that by brining attention to this topic we 
can assure that every dollar appropriated to the VA is being 
spent properly on care and benefits for our veterans.
    We heard from VA in June of last year during sworn 
testimony that the errors were due to a computer glitch. VA 
advised that the glitch would be fixed by July 2012.
    It is simply unacceptable in a time of tightening belts 
that over $1 billion is being wasted by the VA due to a 
computer error when the money could be put towards benefits and 
health care for our Nation's veterans.
    Nonetheless, two new regional office audits by the OIG last 
month found that 50 percent of the temporary 100 percent 
disability evaluations reviewed were incorrect. The 
explanations given in the OIG audits stated that the 50 percent 
accuracy rate occurred because the staff did not establish 
controls to monitor the processed reductions initially, nor did 
they schedule future medical examinations as required.
    So something doesn't add up here. If the computer glitch 
was fixed in July of 2012, but over 50 percent of the temporary 
total rating claims were still being processed incorrectly of 
January 2013, that leads me to believe that these are human 
errors, not computer errors.
    All of us here today are well aware of the growing workload 
faced by claims examiners; however, we must remember that even 
though each VA employee touches many veterans' lives every day, 
an individual veteran has only one file, so it is important to 
process every claim correctly the first time.
    I want to thank the Vietnam Veterans of America, the OIG, 
and the VA for their valuable input as we work together to find 
a solution to this problem, and I welcome the witnesses to 
continue this ongoing discussion and offer their own specific 
recommendations on how to improve not just temporary disability 
claims processing, but the entire system of processing 
disability claims.
    I would now like to call on the Ranking Member for her 
opening statement.

    [The prepared statement of Chairman Runyan appears in the 
Appendix]

              OPENING STATEMENT OF HON. DINA TITUS

    Ms. Titus. Well, thank you very much, Mr. Chairman, and 
thank you for calling today's hearing on this very important 
topic.
    I also want to thank the witnesses for being here and kind 
of apologize for making you wait for us, but we certainly 
appreciate you doing so.
    As the new Ranking Member of the Disability Assistance and 
Memorial Affairs Committee, I look forward to working with you, 
Mr. Chairman, and all the Members of this Committee. Some are 
not strangers. Mr. Bilirakis and I have been friends for a long 
time, and Mr. Amodei, who serves on this Committee, is also 
from Nevada, so I think we can have good bipartisan cooperation 
as we address these important issues for our veterans.
    I also look forward to getting to know the stakeholders 
better and to work with them as we try to address how our 
veterans receive the benefits that they have so honorably 
earned and truly deserve.
    As you mentioned today, we are here to examine 100 percent 
temporary disability ratings, which is very important to our 
wounded warriors.
    As you know, 100 percent disability ratings provide 
compensation when a disability prevents a veteran from seeking 
gainful employment and returning to civilian life that he left 
or she left.
    You know, we have heard though, that this process that this 
system is not working the way that it should be. Previous 
audits have pointed out some of the problems, and I think some 
of those have been addressed.
    In January of 2011, the VA Office of the Inspector General 
discovered that 15 percent of the ratings evaluations were 
being incorrectly processed. And they projected that these 
errors could be corrected, but in the meantime, they could cost 
the VA over $1 billion in overpayments.
    Now, as the Chair mentioned, but it bears repeating, $1 
billion is something to be concerned about. But this doesn't 
just go one way in terms of overpayments. At the Reno VA 
regional office, which serves my congressional district in 
Southern Nevada, the Inspector General found that over half of 
the 100 percent disability evaluations were incorrectly 
processed. And while a number of these involved overpayments 
there were also some under payments, and we certainly don't 
want our veterans to be underpaid.
    For example, we found one veteran with service-connected 
bone cancer and prostate cancer who was underpaid nearly 
$10,000 over a period of three years. We must address this.
    The IG reported that 93 percent of these errors could be 
avoided with three simple fixes: Follow-up exam dates put into 
electronic records, calendar notifications that are observed 
and not just ignored or overlooked, and if staff secures the 
proper medical evidence before changing the evaluation to a 
permanent rating.
    I am concerned that these problems exist in all the areas, 
not just in Nevada, and that is why we need to look at it 
nationally.
    So I am looking forward to hearing the testimony today, to 
look at how some improvements have been made, what we need to 
do to be sure that they all go into effect, and I not only want 
to hear from you what you have been doing and what the results 
are, but I need for you to tell us what we as Members of 
Congress can do to help make your job easier and more efficient 
and effective.
    So thank you very much, Mr. Chairman. I yield to you.

    [The prepared statement of Hon. Dina Titus appears in the 
Appendix]

    Mr. Runyan. Thank you.
    With that, at this time I would like to welcome our first 
panel to the witness table.
    First we will be hearing from Mr. Rick Weidman, Executive 
Director for Policy and Government Affairs with Vietnam 
Veterans of America. Next we will hear from Ms. Linda Halliday, 
Assistant Inspector General for Audits and Evaluations of the 
VA, Office of the Inspector General. She is accompanied by Mr. 
Larry Reinkemeyer, the Director of the Kansas City Audits 
Operations Division and Mr. Brent Arronte, Director of the San 
Diego Benefits Inspection Division, both with the VA Office of 
the Inspector General.
    Your complete and written statements will be entered in the 
hearing record.
    And Mr. Weidman, you are now recognized for five minutes 
for your oral testimony.

 STATEMENTS OF RICK WEIDMAN, EXECUTIVE DIRECTOR FOR POLICY AND 
  GOVERNMENT AFFAIRS, VIETNAM VETERANS OF AMERICA; MS. LINDA 
     HALLIDAY, ASSISTANT INSPECTOR GENERAL FOR AUDITS AND 
EVALUATIONS OFFICE OF THE INSPECTOR GENERAL, U.S. DEPARTMENT OF 
 VETERANS AFFAIRS; ACCOMPANIED BY LARRY REINKEMEYER, DIRECTOR, 
KANSAS CITY AUDIT OPERATIONS DIVISION, OFFICE OF THE INSPECTOR 
 GENERAL, U.S. DEPARTMENT OF VETERANS AFFAIRS; BRENT ARRONTE, 
DIRECTOR, SAN DIEGO BENEFITS INSPECTION DIVISION, OFFICE OF THE 
     INSPECTOR GENERAL, U.S. DEPARTMENT OF VETERANS AFFAIRS

                   STATEMENT OF RICK WEIDMAN

    Mr. Weidman. Thank you very much, Mr. Chairman.
    Vietnam Veterans of America appreciates the opportunity to 
share some thoughts on this problem under consideration today.
    First, I want to thank you publicly having already thanked 
you privately for your assistance in making sure that the goals 
to our mothers in memory statue project moves ahead by getting 
it through the Congress and signed into law, and that is a 
great service and I know that most of our moms across America 
really appreciate that.
    As a general statement regarding VA management, I think all 
of us have been concerned for a very long time that--about two 
things. One is that there seems to be a lack of accountability 
on the part of management at many places, in other words, 
people are not held accountable. And secondly, that the 
management system measurings may not be the right things.
    We believe strongly in the military axiom that a unit does 
well that which a commander checks well, and if in fact it is 
not being checked well and/or there are incentives to do 
something other than what you want them to do then most staff 
will take the path of least resistance.
    So what you measure and how you measure it and hold 
individual adjudicators accountable is absolutely key.
    It is important, we believe, to understand the system in 
context. Since at least 1998, there has been this thing called 
backlog. It has been in the press, people have banged on both 
leadership--political leadership as well as civil servant 
leadership within the VBA about the backlog, and it has become 
almost like a great monster in the background and great for 
boating.
    We need to move a bit beyond that, because what has 
happened is, when a system is under stress, the people in it 
are under stress. When people are under stress for a long 
period of time their effectiveness and efficiency begins to 
drop, and frankly, we think that is part of the problem that is 
reflected in the reports before us.
    In order words, if you are doggoned if you do, and doggoned 
if you don't, and it is repeated over and over and over again 
that you don't have adequate resources to meet all of those 
demands then the system will show fatigue and make errors. That 
doesn't excuse those errors at all, it doesn't excuse the under 
payments or the overpayments, but I think it makes it more 
understandable.
    One of the recommendations made by this Committee in the 
past backed up by a number of veteran service organizations, 
including VVA, is that Veterans' Benefits Administration do 
joint training of adjudicators with our veteran service 
officers and the county veteran service officers as well as the 
state people. That still hasn't happened.
    The importance of that is that if at least everybody is 
proceeding on the same base of knowledge, even though 
approaching it from a different perspective, we will have many 
more fully developed claims that will in fact speed up a lot of 
the adjudications.
    Number two, our recommendation to help make this better, 
this overall situation, is a statement of account that comes 
every month that can be automated.
    The overwhelming majority of the younger ones and more and 
more of older veterans are now in E-benefits and My Healthy 
Vet, the respective electronic systems that are a secure 
communications with the Veterans Benefits Administration for E-
benefits and My Healthy Vet for the Veterans Health 
Administration. It is a way on that they can go on secure thing 
mechanism and find out this is what you were paid this month 
for X, for Y, for Z. It would help those in the GI Bill 
understand what it is for, and it would also help people who 
are on temporary 100 percent disability would warn them that if 
you haven't had a physical and haven't gone in for a 
reevaluation you need to do so. And so it is another way to 
make sure there is a backstop in the system.
    Number three, the third thing is we certainly will be busy 
talking to our friends and supporters on the Appropriations 
Committee, and I know this Committee will be sending forth 
views and estimates. And I would just stress, because it is--
although a good case can be made from more staff for VBA, I 
don't see that happening in this particular fiscal climate. But 
what I do beseech you to do is not cut the IT budget. Let the 
automation go forth.
    A lot of the solution, we all know who have looked at this 
and studied it from the Congress' point of view, from the IG's 
point of view, is that the more automated this system is, then 
you have equal application of the rules no matter where one 
lives in this country, no matter which adjudicator is involved, 
and so much of the problem will be solved that way.
    I see that my time is nearly up. I will just end with 
thanking you again for this hearing, Mr. Runyan and Ms. Titus 
and look forward to answering any questions and working with 
you to improve this vexing situation.

    [The prepared statement of Rick Weidman appears in the 
Appendix]

    Mr. Runyan. Thank you.
    And Ms. Halliday, you are not recognized for your 
testimony.

                  STATEMENT OF LINDA HALLIDAY

    Ms. Halliday. Chairman Runyan, Ranking Member Titus, and 
Members of the Subcommittee, thank you for the opportunity to 
discuss the OIG's audit and inspection results regarding the 
effectiveness of VBA's processing of temporary 100 percent 
disability evaluations.
    I am accompanied by Mr. Brent Arronte, the Director in the 
OIG San Diego Benefits Inspections Division and Mr. Larry 
Reinkemeyer, the Director of the OIG Kansas City Audit 
Operations who issued that National Report in 2011.
    Delivering timely and accurate benefits and services to 
veterans is central to VA's mission.
    Processing 100 percent disability evaluations comprises one 
important part of VBA's workload; however, our 2011 report, the 
audit of 100 percent temporary disability evaluations, 
identified veterans receiving long-term payments without 
adequate medical evidence to support the continued entitlement 
of those benefits.
    We projected that since January 1993, regional office staff 
overpaid veterans a net amount of about $943 million. Without 
timely corrective action, we conservatively projected that VBA 
would overpay veterans 1.1 billion dollars over the period of 
calendar years 2011 through 2015.
    VBA agreed to review temporary 100 percent evaluations to 
insure proper controls existed to process these evaluations 
correctly; however, VBA's efforts have not been aggressive 
enough to effectively address this issue.
    VBA did not begin its internal review until September 2011 
and extended the review deadline multiple times, extending the 
most current deadline to December 31, 2012.
    After two years, VBA is still working to complete the 
national requirement, and we are concerned about the lack of 
urgency in completing this review, which is critical to 
minimizing the financial risks of making inaccurate benefit 
payments.
    Further, our VARO inspections over the past three years 
have continued to report systemic problems in VBA's processing 
of temporary 100 percent disability ratings. We found 
inaccuracies in 66 percent of the cases we reviewed. These 
errors resulted in just over $15.5 million in overpayments and 
almost $293,000 in underpayments.
    Using actual error rates known from our benefits 
inspections, today we estimated that approximately $232 million 
of overpayments occurred in Fiscal Year 2012. This estimate 
compares favorably with the projection that we identified in 
our national audit of about $220 million annually.
    VBA has testified that system glitches are the reason for 
many of the errors related to temporary 100 percent disability 
processing.
    In 2011 and again in August 2012, VBA modified its 
electronic system to insure diary dates automatically populate 
and remain in the system without manual entry.
    A suspense diary generates an electronic reminder for VBA 
staff to schedule a medical reexamination to reevaluate the 
case. When there is no reminder, a disability evaluation and 
corresponding benefits will continue throughout the veterans 
lifetime because nothing calls the case into question again for 
review.
    We have not tested these system modifications, and 
therefore, we have no assurance that they have resulted in 
system-wide corrections; however, we do know the system fixes 
have not addressed the continuing problem of VA regional office 
staff errors in failing to establish and prematurely canceling 
suspense diaries that exist in the system.
    As long as VBA delays taking effective action to address 
this issue, VBA and VA remain at risk of underpaying some 
veterans and repeatedly overpaying others without proper 
medical support.
    Mr. Chairman, thank you for the opportunity to be here. We 
would be pleased to answer any questions the Committee and you 
would have.

    [The prepared statement of Linda Halliday appears in the 
Appendix]

    Mr. Runyan. Well, thank you both very much for your 
testimony. And with that, we will start a round of questions.
    My first one is for Mr. Weidman. Can you provide examples 
how overpayment has and the subsequent recoup by the VA has 
affected a veterans life? Mr. Weidman?
    Mr. Weidman. Oh, I'm sorry.
    Mr. Runyan. Yes.
    Mr. Weidman. What happens on the repayment is, it is more 
devastating than ever having received the payment in the first 
place, because the people don't have the resources to pay it 
back in most cases because they got it, they thought well, I 
must have deserved it and been entitled to it, therefore the 
money is gone, and they have to either take it out of the 
monies which would be much less than 100 percent, usually about 
30 or 40 percent of disability, which is much less money, and 
it leaves people with a credit history that is destroyed from 
which in many cases they never can recover because of having to 
pay back an overpayment.
    So that is why we suggest this idea of getting everybody on 
E-benefits, which all the younger vets are, and sending a 
statement of account every month so that they know what they 
are getting and why, and there can be additional verbiage that 
if they need to come in for an exam to justify continued 
receiving at a certain rate, then it puts some onus back on a 
veteran to come in and warns him or her that they are heading 
for deep waters.
    Mr. Runyan. So you would say, if you had that verification 
and say they were getting a statement and date certain that 
they had to have a medical exam, would you put that onus on 
them and do you think they would be able to make that happen, 
the veteran themselves?
    Mr. Weidman. I think there is actually three entities that 
share responsibility here. First of course is VBA who gave the 
temporary rating. Second is VHA, which nobody has talked about 
yet, which shares--they know that it is their information that 
caused the VBA compensation in pension to give the temporary 
100 percent. And last, but by no means least, is the veteran 
him or herself to know what are they getting and their 
responsibility if in fact is of a temporary nature to seek out 
an appointment with VHA.
    Mr. Runyan. Thank you.
    Ms. Halliday, in your opinion why has the VBA failed to 
take adequate and timely measures to address the systematic 
problems?
    Ms. Halliday. I think it is general reliance that they 
needed an IT fix and that took some coordination between VBA 
and OI&T. We kept telling them it is not just the IT fix. What 
we were finding were that VARO staff were not making the proper 
input to put these diaries in place. Regardless of whether you 
had an IT fix in place, that action had to occur.
    So it has been a while that I don't believe VBA has been 
aggressive enough in addressing that piece of it.
    I know recently Ms. Rubens had laid out some corrective 
action that included training, which is consistently 
recommended in the benefits inspections reviews to try and 
reduce the human error associated with processing some of these 
claims.
    Mr. Runyan. And going back, you mentioned in your testimony 
there about the targeted completion date which was moved 
several times from September 30, 2011 to December 31st, 2011 to 
June 30th, 2012 and then to December 31st, 2012. Do you know if 
the December 31st, 2012 deadline was ever met or has it been 
pushed back even further?
    Ms. Halliday. We haven't tested for it, but the evidence 
would be right now the benefits inspections are still 
identifying substantial errors.
    Mr. Runyan. And then finally an alarming statistic in your 
written testimony says that of the 53 regional offices 
inspected during your national audit, none have fully followed 
VBA policy in processing temporary disability claims 
evaluations.
    Can you further elaborate on the extent that these problems 
are due to human error as opposed to the computer glitch, and 
do you agree with VBA's insistence that system glitches are the 
same reason for these errors?
    Ms. Halliday. I would like to ask Brent Arronte to respond 
since he has spent so much time in our VA regional offices 
doing the inspections.
    Mr. Arronte. What our inspections have shown is about 46 
percent of the errors that we see with suspense dates is what 
VBA is saying was the result of a systems glitch. We never 
found a systems glitch. To us a glitch means the system was not 
working as intended.
    We spoke with some about the architecture behind this in 
2010 and they told us that the system was never developed to 
ensure that these diary dates were populated into the system.
    With that, two of the fixes that VBA has indicated that 
they have implemented, one in 2011 and one in 2012, we have not 
tested that yet, so we haven't obtained the data to see if 
those fixes are working systematically.
    But what we have seen is about 25 percent of the errors are 
related purely to human error where staff is not putting in or 
canceling reminder notifications inadvertently, not 
understanding how to process reminder notifications, and the 
results are benefits being paid when there is no evidence 
showing entitlement.
    Mr. Runyan. Thank you. And with that, I will recognize the 
Ranking Member Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    I would like to go back to the points that you were making 
about automation, Mr. Weidman and the statement of account, 
because that sounds like that is a good idea. It sounds like 
that information is always helpful when you are trying to make 
decisions about your future, what your health care needs are, 
or what opportunities you might be not availing yourself to 
that might be out there.
    I wondered if you would elaborate on that. Have you talked 
to the VA about how this would work, what it would cost, how 
much this computer system would work to send out these 
statements of account that would have both the payments of what 
people are getting and the notice that they might need to go in 
for an examination to change their status?
    Mr. Weidman. Let me be clear, we don't want them to send 
anything out by USPS.
    Ms. Titus. Right.
    Mr. Weidman. In other words no more paper.
    Ms. Titus. Right.
    Mr. Weidman. The problem is, is everybody is drowning in 
paper now.
    But in the E-Benefit system----
    Ms. Titus. Uh-huh.
    Mr. Weidman. --even though our friends from the IG noted 
that the architecture does not call for it, there is no reason 
why you can't alter the architecture and the rules that if 
someone receives 100 percent disability that is temporary, that 
it automatically kicks in to the system so that it doesn't have 
to be manually entered.
    And that is really what we are driving at of program in 
everything you can program, so that you don't depend on an 
individual that every singe individual does everything right 
all the time. Automate what you can and you avoid a lot of 
heartache, and then concentrate on where you need the human 
factor brought in, and that is a place where the human factor 
has gotten us into trouble, so let us take it out of the human 
factor and focus on automation.
    Ms. Titus. Well, perhaps I misunderstood. I thought you 
said that most of the young veterans were on the E-benefits 
program but not everybody is.
    Mr. Weidman. Not everybody is, but it is surprising to me 
how fast people have taken to E-benefits. We have had an E-
benefits booth at our national convention and our national 
meetings and at many of our state conferences around the 
country for the last four or five years and people take to it 
like ducks to water because it is easier.
    And there was a time ten years ago where we had a hard time 
getting many VVA members to get on the Internet, and it is a 
question of be careful what you ask for. Now they are on the 
Internet and I get, you know, 300 emails a day from folks 
inside VVA.
    But my point is the young ones are already on and the older 
veterans are now getting on. It is a way to notify people. 
Everybody has access to a computer.
    Ms. Titus. Uh-huh.
    Mr. Weidman. And because it is through the system that is 
already developed adding in the notification and statement of 
account that is generated automatically doesn't cost you any 
postage, it doesn't cost you anymore staff time, it is just 
simply a way of failsafe checking to know what you are entitled 
to. And if that is not correct then you can reach out to a 
person in the local regional office.
    Ms. Titus. Maybe we need a policy to encourage more people 
to get onto this system. I know it is perhaps a generational 
thing, who uses computers and who is a little more intimidated 
by them, so perhaps we could look at that.
    I would just ask both of you, do you think these problems 
are more problems of process or do you think they are problems 
of policy? Do we have the policies in place that will make this 
work and they are just not being carried out or complied with 
or do we need to change the policy?
    Mr. Weidman. I think the policy is adequate, it is a 
question of how do we get across the board compliance? And from 
our point of view, the across the board compliance really comes 
from this is a process that can be automated so why isn't it?
    Ms. Titus. Uh-huh.
    Ms. Halliday. I would concur that the policy is adequate. 
We measure all of our work against that policy. We are looking 
for the areas where there isn't compliance, and that is 
generally what we find.
    So you will have some errors generated with not having 
automated edit checks within the system and then you are going 
to have people error in a system this large.
    Ms. Titus. Do we need better training of our employees?
    Ms. Halliday. We absolutely need better training.
    Ms. Titus. All right. Thank you, Mr. Chairman.
    Mr. Runyan. All right. Mr. Cook. Mr. Cook is now 
recognized.
    Mr. Cook. Thank you, Mr. Chair.
    You know, I am trying to soak all this in here and I've got 
to tell you I am very, very disturbed. One as a veteran--
Vietnam veteran and secondly as a former IG. And where you go 
in and you discover a problem and where the answer is, well, 
the dog ate the computer or it is almost like when I was--after 
I retired, I was in the academic environment where you have the 
different excuses why certain things couldn't happen.
    And so I am kind of curious as to where the onus is on. The 
IG goes in there and says, hey, this has screwed up A, B, C, D. 
Within six months we want corrective action that says you have 
done the following things and then you go back and you check to 
make sure that that has been done or hasn't been done.
    And so I am wondering is there still this, well, we can't 
do it because of technology or because we don't have our people 
trained?
    And I am trying to accept that, because you know, I've got 
to tell you up front, I am a veteran IR-1, very, very 
sympathetic, particularly to anybody who has been wounded in 
combat, has the whole thing, and it is just unsatisfactory.
    You got six months to fix the problem. If you can't do it 
for the veterans who put their lives on the line then I am 
sorry, we got to get somebody in there who can do it. And that 
is my attitude right now.
    And so, you know, I am brand new and I come from a 
different perspective, sir, you know that I was involved in 
this heavily in California and so I get a little bit passionate 
about it. So I don't know, the standard excuses about 
technology, I just cannot accept at this time.
    So I am wondering about follow-up in terms of the 
individuals that were involved, when they were going to correct 
it, whether they just say we are waiting on technology. If you 
can address that I would appreciate it.
    Ms. Halliday. Thank you.
    We had expected VBA to keep their commitment to work this 
national requirement and we just watch slippage upon slippage. 
I think that you have to ask VBA as to why it took so long. We 
are extremely concerned, given the value of the financial 
payments that were going out the door as running benefits that 
were not accurate.
    The accountability lies with VBA, I think we were very 
aggressive in trying to work with them to make sure they 
understood the problem and that they went to fix the problem. 
We received a lot of push back over just the projection, but 
very little focus on fixing the problem.
    Mr. Weidman. I understand your attitude about zero 
tolerance, Mr. Cook, and from the point of view of the veteran 
on the street, absolutely agree with it.
    But what I am saying and this whole thing is an example of 
a statement of account, only was suggested by our state 
president in Alaska in response to a meeting with those going 
to school at the university up there and said can we get a 
statement of account?
    We discussed it with the under secretary last week and they 
are going to try and do this. It is actually something that can 
be done within the current architecture of the system.
    There are some other things that they haven't done that we 
have been recommending and this Committee has been recommending 
for a long time.
    Number one, joint training. It has never gone anywhere. We 
are willing to do it and sit down and negotiate what should go 
into training of our folks with the VA and frankly they ought 
to be sitting down with us, because if the claim is not 
prepared correctly they can't adjudicate correctly. Their time 
for a properly prepared fully developed claim in adjudication 
is ten minutes. You either--it is there or it is not there, 
because the way we teach people to organize a claim is in such 
a way that you can look and it is there with the supporting 
documents and boom.
    A lot of the problem comes in when you have a file this 
high of disorganized mess and it takes somebody half a day in 
order to even give a cursory glance to what is in the file. And 
the reason is, it is not properly prepared.
    So I think that the understanding on both sides, if you 
will, of the veteran service organizations, county veteran 
service folks, and the state folks would be much higher if in 
fact we had joint trainings in California, in Texas, in where 
ever across the country that that would make a great deal of 
sense. That is one.
    Two, as you probably know from the folks in VBA that you 
work with in California, if nothing else we are a tenacious 
bunch of SOBs and we will be coming back about getting this 
minor tweak, if you will, on the architecture of this system in 
order that people can run a statement of account, and number 
two, an automatically generated letter and enter it into what 
is now a manual thing. Why? I mean why?
    Let me offer an analogy, Mr. Chairman, if I may. The 
analogy is on the Veterans Health Administration side. They had 
scandals all over the country about doing colonoscopies and not 
properly cleaning the machines. Well, it turns out that their--
and why do I know this is because I talked to the service 
disabled veteran-owned company who makes a machine that is 
self-cleaning who they couldn't even get through the door to 
show it to VA. And instead of having to depend on a grade three 
doing everything correctly to sanitize this machine every 
single time in every hospital in the VA system all you do is 
flip the switch and boom it is done.
    If you can automate it, automate it, and then free up your 
FTEE to devote to things that you really need people to do as 
opposed to the machines.
    Mr. Runyan. Thank you. Mr. Amodei? You have no questions. I 
actually have another one and I will open up a second round to 
the other members also. This question is just for Mr. Weidman, 
it is the only question I have.
    As we do get to a point where we have to determine if a 
veteran should stay on or should be reduced, what is his 
likelihood of actually getting that appointment in a timely 
manner?
    Mr. Weidman. That depends on a medical center, quite 
frankly. The--I said earlier that it is a shared responsibility 
with the VHA and--but VHA has never been given or held 
accountable to that responsibility, nor have they been held 
nearly accountable enough for completing every single question, 
if you will, on the C&P examination. And they need to be. And 
it is not something that is an imposition on them, it is 
something that is part and parcel of their duties and 
responsibilities as part of the whole organization and it is 
not being done. They have never taken any responsibility for 
their part of it.
    Mr. Runyan. Thank you. Ms. Titus, do you have anything 
further?
    Ms. Titus. Just quickly, thank you. I'd like to ask Ms. 
Halliday, it disturbs me that the VA and the IG just do not see 
eye-to-eye on some of these findings, like the sample size and 
audit, when the data was collected, that sort of thing. So can 
you just go over for me when the data was collected for the 
review that went into the report issued in January of 2013, so 
that we can see that that was collected after the VA says some 
of these improvements were made that you had recommended 
earlier?
    Ms. Halliday. Yes. Normally what our benefits inspections 
do is they will pull out of the temporary hundred percent that 
are active in that last completed quarterly fiscal period. We 
take a cyclic approach when we do these.
    So we do not expect to really start seeing and being able 
to validate the corrective actions till our summer reports, 
which we will start pulling that data in March of this year.
    Ms. Titus. I am sorry. I know you said you had some 
concerns and some preview showed that things still were not 
being met, but it is a little unfair to kind of indict the VA 
for things that you have not really measured yet; is that 
right? Are you comfortable with being able to do that later 
this summer, to be able to see if some of these things are 
working or not?
    Ms. Halliday. We will absolutely see, as we start to pull 
the data that falls into post corrective actions on the IT 
system modifications. So we do expect to see that.
    Ms. Titus. Do you expect it to be better?
    Ms. Halliday. I am hopeful it will be better. Although we 
have not really tested it, we have had some observations that 
appear it works, but we do not have that reasonable assurance 
that a full system-wide fix is in place yet.
    Ms. Titus. Okay. Thank you, Mr. Chairman.
    Mr. Runyan. Mr. Cook, Mr. Amodei, anything else? No. With 
that being said, ladies and gentlemen, on behalf of the 
Subcommittee, I thank you for your testimony and look forward 
to continuing to work with you on these important matters, and 
you are now excused. And I will call the next panel up.
    At this time, I will welcome Ms. Diana Rubens, Deputy Under 
Secretary of Field Operations in the Veterans Benefits 
Administration at the U.S. Department of Veterans Affairs. I 
appreciate your attendance today. Your complete and written 
statement will be entered in the hearing record. Ms. Rubens, 
you are now recognized for five minutes for your testimony.

                   STATEMENT OF DIANA RUBENS

    Ms. Rubens. Thank you. Good afternoon, Chairman Runyan, 
Ranking Member Titus, and Members of the Subcommittee. Thank 
you for the opportunity to discuss the Veterans Benefits 
Administration's process of the temporary 100 percent 
disability rating.
    As we have all mentioned, the VA regulations authorize 100 
percent disability rating under specific criteria, tied to 
individual disabilities or when any service-connected 
impairment of mind or body makes it impossible for a veteran to 
pursue substantially gainful employment.
    These can be granted either on a temporary or permanent 
basis. VBA grants a permanent rating if medical evidence shows 
the veteran's total disability is not likely to improve. A 
temporary 100 percent disability ratings are awarded when 
service-connected disabilities require complex surgery, 
convalescence, or specific in-patient or intense treatment, 
such as radiation or chemotherapy.
    At the end of that period of convalescence or following 
association of treatment, VBA is responsible for reviewing the 
veteran's medical condition to determine whether to continue 
the temporary 100 percent rating.
    If the medical exam shows material improvement in the 
veteran's condition, and VBA determines a reduced rating is 
necessary, we then initiate an action to reduce benefits.
    When VBA proposes a reduction in benefits, the beneficiary 
is notified and they have an opportunity to submit additional 
evidence and/or request a pre-reduction hearing. It is also 
possible that the 100 percent evaluation is determined to be 
permanent.
    In January of 2011, the VA OIG released the report of its 
audit, of our temporary 100 percent disability ratings. The 
audit examined two areas, whether VBA regional offices were 
correctly assigning 100 percent disability ratings as either 
permanent or temporary, and whether RO's were effectively 
monitoring and re-evaluating those temporary ratings.
    The audit found the temporary 100 percent disability 
ratings were not being correctly monitored for re-evaluation. 
They identified three primary causes, and made seven 
recommendations, including a recommendation that VBA review all 
temporary 100 percent disability ratings, to ensure each 
evaluation had a future examination date entered into the 
electronic record, and to continue reviewing all temporary 100 
percent disability ratings going forward. We agreed to 
implement all of those recommendations.
    Our challenges we have talked about was the system. In 
September of 2010, during the course of the audit, we 
identified, VBA identified a system software problem causing 
many properly established future exam dates to drop out of the 
system, contributing significantly to the problems being 
identified by the IG.
    After extensive analysis, the VA determined that the 
complexity of the system requirements for future examination 
processing required a complete redesign of that system 
functionality. Unfortunately, the first fix that we implemented 
in June of 2011 simply revealed additional problems, which were 
not fully resolved until July of `12. That redesign 
successfully corrected the previously identified system 
defects, and we believe has corrected the problem going 
forward.
    During the extensive system correction, VBA took two 
courses of action. The first extensive and ongoing training of 
our workforce and claims reviews. These reviews were conducted 
three separate times to ensure future examination dates were 
properly recorded for temporary 100 percent ratings and to 
schedule medical exams for those veterans who were overdue for 
re-evaluation.
    In the course of the reviews, VBA continued to identify 
cases that were not properly controlled or tracked for 
completion of all required actions. Either because proper 
corrective action had not yet been taken, or had been taken 
prior to the July 2012 system fix.
    To address the concern, a back-up process has been put into 
place to identify cases without a future examination date 
established, and require a review of these cases to either 
establish a future date or ensure the rating decision correctly 
documented that hundred percent rating as permanent.
    Because of the input of the future exam dates, remains a 
manual input process within our current legacy system, we 
continue this back-up process to ensure that the hundred 
percent ratings are appropriately identified as either 
temporary, with a future exam scheduled, or as permanent. That 
review is being done every two weeks.
    Equally important to VBA's long term management of our 
temporary 100 percent evaluation is our transformation process. 
The culmination of people process and technology enhancements 
designed to eliminate the claims backlog and achieve our goal 
of processing all claims within 125 days at 98 percent quality. 
Our new paperless processing system, the Veterans Benefits 
Management System, is employing rules based functionalities 
that will allow VBA to more effectively monitor and timely 
adjust 100 percent ratings.
    Using all that we have learned and implementing the fixes 
in our legacy systems, once VBMS is in place nationwide, these 
rule sets will ensure we automatically comply with the business 
rules and procedures associated with temporary 100 percent 
ratings.
    VBA is committed to providing timely and accurate payments 
to veterans while ensuring proper stewardship of taxpayer 
dollars. We have already taken significant corrective actions, 
including case review, legacy system software changes, 
mandatory training, increased oversight, and technology 
enhancements into our new VBMS system, to ensure that our 
temporary 100 percent ratings are monitored and adjusted 
appropriately.
    At the same time, we acknowledge our regional offices have 
not yet completed action on all the individual cases requiring 
review. We continue to carefully monitor with these cases to 
completion, partnering with OI&G to ensure we are providing 
veterans with timely and accurate benefit payments.
    This concludes my statement. I would be pleased to answer 
any questions you or the Members of the Subcommittee may have.

    [The prepared statement of Diana Rubens appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Rubens. In your written 
testimony, you stated that the redesign completed on July 2 of 
2012 fixed the computer issue. Can you explain why the most 
recent IG or OIG reports for the Anchorage and Detroit regional 
office, which were issued in January of `13, a full two years 
after the OIG's initial review, have indicated more than half 
of the temporary total disability claims were processed in 
error?
    Ms. Rubens. Yes, Chairman Runyan, thank you. As I reviewed 
those most recent reports on Detroit and Anchorage, and find 
that the data collection that they used to base their 
assessment on was from January to March of 2012, prior to the 
final full system fix.
    We acknowledge that during that time we were continuing to 
review from an annual standpoint the listing of cases, but also 
realized that the full system fix did not go into place until 
July of 2012.
    Mr. Runyan. Do you dispute the number that human error 
accounts for 25 percent of that?
    Ms. Rubens. I would tell you that we readily acknowledge 
the human element, if you will, of the rating activity. Wherein 
as a rating specialist has to indicate whether or not it is 
permanent or temporary evaluation, and that the diary needs to 
be put into place. We believe that we have done a tremendous 
amount of training, and will continue to do that to ensure that 
the human element is also addressed.
    Mr. Runyan. In layman's terms, is there a 30-second 
response to what was the nature of the computer glitch?
    Ms. Rubens. I will do my darndest to put it in something 
not too technical, which shouldn't be too hard, because I am 
not too technical.
    As I understand it, as we would put the diary into the 
system, indicating that the veteran would require a future 
review exam, if subsequent award action was taken for that 
veteran, having nothing to do with the review, it would drop 
that diary out of the system; thereby, if you will, erasing the 
reminder that would pop up at the appropriate time to do the 
review exam.
    Mr. Runyan. Okay. According to the OIG's testimony, the 
National Review that VBA said it would undertake in 2011 has 
been repeatedly delayed, with the most recent postponed delay 
dated December 31st, 2012 was the National Review completed by 
December 31st, 2012, or was the deadline pushed back even 
further? I had asked that question in a previous panel, and I 
would like to see if you have pushed it back even further.
    Ms. Rubens. So as we initially had the conversation about 
the need to conduct the review, identified the problem within 
the system, there were, I am going to call it, several buckets 
that we looked at of work that we wanted to look at.
    We started first with the first--the top three, most 
prevalent conditions that were causing the system review need. 
There were about 81,000 of those initially. As we reviewed 
those very quickly, the next thing that we began to do was 
establish through lists the reviews required for subsequent 
claims.
    Those began to be issued to regional offices in January of 
`12, and were issued through all of FY `12. So when you say 
that we have delayed, I would say that we had different 
buckets. We had what we thought was going to be a system fix in 
June of 2011, identified, in fact, that that was not the fix 
that we needed, and if you will, went back and continued to 
pull those other claims to ensure that in the translation, if 
you will, we hadn't lost track.
    Even today, as we have veterans who are granted a temporary 
100 percent disability evaluation, while we believe that we 
have got the system fixed in place that requires our rating 
specialist to indicate this evaluation is permanent or this 
evaluation requires a review, we recognize the human element of 
somebody having to put that in, that verification that it is 
permanent.
    And so that is why we are continuing to run every two weeks 
a trap, if you will, on new 100 percent evaluations to ensure 
it either indicates it is permanent, or it is temporary, and it 
has a diary established, to ensure that the human element, as 
it comes into play, is backstopped if you will by technology.
    Mr. Runyan. That tool is in the current version of VBMS?
    Ms. Rubens. Both in our legacy system, and as we were 
building VBMS, the functionality is coming into play there as 
well. So we are trying to do it on both sides.
    Mr. Runyan. Thank you. I would like to recognize the 
Ranking Member Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman. Earlier, Ms. Halliday 
said she hopes the next review will show that these things you 
have put in place show improvement. Do you hope so, too, or can 
you give us more reassurance than that?
    Ms. Rubens. I am going to give you more reassurance. We 
have done over half a dozen training sessions around all of the 
issues of permanent and total ratings, reviews for both our 
veteran service representatives as well as our rating 
specialists. We believe that the fix is in place, but also to 
ensure that, in fact, both the human component, as well as the 
technology component are working, we are running those filters, 
those traps, if you will, every two weeks and generating or 
capturing any of those that are not either permanent or have a 
future diary in place, and ensuring that the regional offices 
are reviewing those lists promptly to indicate one or the 
other.
    Ms. Titus. Do you have any sense, or any record, or any 
calculation of how much was overpaid during the time it took 
you to fix that glitch?
    Ms. Rubens. So for the first group of claims that we 
reviewed, that first 81,000, as we looked at the number of 
reviews, in fact, 70 percent of those are now permanently rated 
at a hundred percent. As we continued to look, an additional 15 
percent of those are still temporarily rated at a hundred 
percent, and have that future diary established. Ongoing care 
or treatment necessitates that push out, if you will, of the 
review exam.
    And unfortunately, 13 percent are now deceased and I would 
say I am not sure that we could evaluate or assess that that 
rating should have been reduced, and that about 2 percent of 
them where we have reduced the rating.
    So I would tell you that as we look at our estimate, it 
would have resulted in something closer and still not 
acceptable, $215 million in overpayments. Part of the system 
fix that we think that we have got in place now to go along 
with the training in the future as we move into the electronic 
environment, that we build into our veterans' benefits 
management system, incorporating the rules based components 
into our new environment to ensure we continue to monitor and 
evaluate our temporary 100 percent evaluation utilization.
    Ms. Titus. Have you considered Mr. Weidman's recommendation 
about that statement of account? Do you think that would work 
or be helpful for you all could do that?
    Ms. Rubens. I will tell you that we have seen tremendous 
growth and utilization of our E-benefits account. From about 18 
months ago, it was somewhere in the 200, 250,000 accounts to 
over 2 million today. Every quarter, we look to establish new 
functionality to make the system better and more user friendly 
for our veterans. Mr. Weidman's idea is terrific, one that I 
think goes along with the efforts that we are engaged in now to 
begin to use our E-benefits account as our notification for 
anything having to do with a claim, and this is a perfect 
combination to incorporate the temporary 100 percent 
evaluation.
    Ms. Titus. And just one last thing, as I understand it, if 
you have been on temporary disability for 20 years, it 
automatically becomes permanent; is that right?
    Ms. Rubens. Yes, ma'am.
    Ms. Titus. Is that a figure that needs to be addressed or 
does that work well or does that accommodate our veterans?
    Ms. Rubens. I do not have any information, but I can take a 
look at the number that actually get to that 20-year marking 
and get back to you.
    Ms. Titus. Okay. Thank you, Mr. Chairman.
    Mr. Runyan. Thank you. Mr. Cook?
    Mr. Cook. I am almost afraid to speak or ask questions on 
this. I appreciate your candor on this. I probably have, I do 
not know, personal experiences with this because I did deal 
with the VA, particularly when the different rules had changed 
for Agent Orange, because full disclosure, I was diagnosed and 
treated for leukemia. And, you know, I talked to my oncologist 
and what have you, and he said, well, it is probably related to 
Benzine, and he was giving me the medical background, but he 
also talked about Agent Orange. And early on, the VA did not 
make that correlation. They did not want to give a benefit.
    I wanted to see how this would work, because I had a lot 
of--I belong to a lot of veterans organizations, including the 
one that was represented at the table, and the Disabled 
American Veterans and everything else. I submitted a claim to 
see what would happen. And it was kind of frightening, in that 
I got a phone call to come down there, and I did all the 
physicals and then about six months later, they said, well, can 
you come back for a follow-up. So I came in there. And they 
said, you have to have a hearing examination. I said, what do I 
want a hearing examination for. And they said, well, you know, 
your disability, you know, I said, it has got nothing to do 
with hearing, I think I can hear fine except when my wife is 
talking, and then I have problems.
    But they had my name mixed up, and it is also based on 
social security number, so I was kind of shocked about it. I 
said, well, what about the claim that I put in there, to see 
if--they said it is being processed.
    About three months later, it came back, and it said it was 
disapproved because there was no evidence that I was in 
country, meaning Vietnam, even though I had submitted a DD-214, 
had a physical examination, and had evidence that I had been 
awarded two Purple Hearts, which I did not get in a barroom 
brawl at Camp LeJeune, it was actually in Vietnam.
    So I was just very disturbed in terms of the process or 
following through. It was kind of like an ongoing battle, and I 
got very frustrated. I have got to be honest with you. But 
talking to other veterans, particularly Vietnam veterans, there 
is a perception out there, which is very, very dangerous that 
the VA does not care about them. And this is an awful thing to 
say, and I think there are veterans, and I mention the Vietnam 
veterans that feel, well, you know, we are going to die anyway, 
we are at that age bracket now, where we are dying in X amount 
right now, and they do not want to address our concerns.
    So it is not just a glitch in the system, at least from my 
perception. There is that feeling that if you are one of these 
categories that are in the categories of Vietnam veterans that 
the perception is, as I said, that you are not to have the same 
attention or--and I would hope that this is not true, and I do 
not think it is, but because of some of these areas where the 
computer is down, these things with veterans' groups and--they 
get really excited about it, you know, all these different 
veterans' groups, they are almost paranoid on some of these 
things.
    So I think it is not just an issue of the payment and 
overpayment, it is whether this organization that was formed to 
help the veterans is actually carrying through on that. And I 
would hope that, you know, in addition to that, that could be 
looked at in terms of this perception and how it gets out to 
these veterans. If you want to address that, I would appreciate 
it.
    Ms. Rubens. Certainly, Mr. Cook. And I would say first, 
thank you for your service. I apologize for the personal 
experience that you had, and I would tell you that there have 
been a number of things that VA and VBA in particular have been 
working to do to change that perception. And I would say on two 
fronts, one from the more current conflicts, the level of 
effort that we have put in to ensuring that the transition is 
one where we are providing as much information as possible 
about the benefits available to them, and it is part of a 
comprehensive briefing, if you will, that looks not just at 
what VBA will do, but what VA can do as well as Department of 
Labor, Department of Education.
    From the Vietnam veteran experience, I recognize that that 
is something that from a timing standpoint, I cannot speak to 
personally. I can tell you that from the standpoint of VA 
today, we have worked very hard to ensure--we are changing 
those experiences. Perhaps at the conclusion, I could maybe get 
a little more insight from you about timing.
    But, in particular, Secretary Shinseki in 2009 addressed 
the evidence before him to incorporate three additional 
presumptives, and as you mentioned, leukemia. I particularly 
hope we can speak privately about that.
    But adding to the list of diseases acknowledged as due to 
the exposure of Agent Orange, Parkinson's, a couple of 
leukemias, as well as the Ischemic Heart Disease, VBA starting 
in May of 2010, quite frankly, sir, began a concerted effort to 
ensure that those Vietnam veterans who had now waited for, in 
many cases, 40 and 50 years for decisions on those claims had 
those addressed.
    We believe that we have worked under the auspices of the 
Nehmer decision from 1985 to ensure that the review of those 
claims has been done in an expeditious quality manner, and 
continued to work to reach out and ensure that any Vietnam era 
veteran who had perhaps exposure to Agent Orange and has not 
had that addressed, has an opportunity to work with us and 
ensure that we do that.
    Mr. Runyan. Thank you, Mr. Cook. I have a very technical 
question. I want to make sure I get it right.
    Ms. Rubens. Okay.
    Mr. Runyan. I want to talk about training a little bit, 
outlining your testimony. But my understanding, the temporary 
ratings are not reduced, they simply expire by virtue of the 
fact that they are temporary, correct?
    Ms. Rubens. If you were granted a temporary 100 percent 
evaluation in the system, and we have a diary established, it 
will come up and we will review any medical evidence that we 
have. And if it is not sufficient to make a determination as to 
whether or not permanency should be granted or the temporary 
evaluation extended, we will request an exam.
    The veteran also has the opportunity to present evidence. 
So it will not just automatically turn off if you will, to 
ensure that perhaps that veteran who is undergoing treatment 
for cancer, that has not responded well, if he or she is still 
undergoing treatment, that that is not turned off while they 
are still in treatment. Or if a rehabilitation or a 
convalescence from a surgery has not gone as planned, does not 
get turned off.
    So it is a due process approach, wherein we will notify the 
veteran of the need for an exam, review the evidence, and make 
that determination at that time.
    Mr. Runyan. Because it--even going through some of this, it 
seems, even with some of the regulations when you look at 38 
CRF 4.30, VA's regulation governing temporary disability rating 
explicitly states, and I quote, ``Termination of these total 
ratings will not be subject to 3.105(e) of this chapter, which 
permits a rating--where it pertains to rating reductions, but 
that such total rating will be filed by appropriate schedular 
evaluation.'' So it is, I think just in the regulations right 
there, it is very confusing. And when you--now you go to my 
first comment of this question, how do you train somebody to 
actually analyze that, and actually adjudicate that?
    Ms. Rubens. So I think there is a two-fold answer to that. 
And the first, of course, is that we are conducting the 
training to address that. And frankly, the second component is, 
I have begun that conversation with our compensation service 
responsible for policy to ensure. If there is room for us to 
clarify the guidance out there, that we in fact work to do 
that, not only for the rating specialist who today are 
administering that, but to ensure that as we are building tools 
into our technology, that it is a more straightforward process 
to ensure that we, I will say, support and supplement the human 
factor engaged in that.
    Mr. Runyan. Thank you. And just one last comment. I know 
there has been, whether it is the VA disputing the IG numbers 
or what, I think we all admit there is a problem, and the 
faster we get to the bottom of it, the more veterans we are 
going to be able to help. I think that is what we need to focus 
on. I think we waste a lot of energy a lot of times arguing 
over the dollar amount. We realize there is a problem, but 
there is a lot of time and personnel we can put towards fixing 
the problem.
    Ms. Rubens. Yes, sir. We are working with the IG to ensure 
that if they have got some other ideas on what we ought to be 
looking at, that we work together to do that.
    Mr. Runyan. Ms. Titus, any further questions? Mr. Cook? 
Nothing.
    Well, with that, on behalf of the Subcommittee, I would 
like to thank you for your testimony. We look forward to 
working closely with you in addressing these important issues 
again, and it is having an enormous impact on our Americans, 
veterans, you are now excused. And I thank everyone for being 
here today. I would again like to emphasize, I look forward to 
working with all of you throughout this Congress to provide 
American veterans across this Nation with timely and accurate 
benefits and the decisions they deserve.
    I would like to thank all of our witnesses for being here 
today to participate in the discussion on what is a stubborn 
problem, but one that can be easily resolved so that we return 
our attention to the more complex claims. I ask for unanimous 
consent that all members have five legislative days to revise 
and extend their remarks, and include any extraneous material.
    Hearing no objection, so ordered. I thank the members for 
their attendance today, and this hearing is now adjourned.
    [Whereupon, at 4:00 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Jon Runyan, Chairman
    Good afternoon and welcome everyone. The first oversight hearing of 
the Subcommittee on Disability Assistance and Memorial Affairs for the 
113th Congress will now come to order.
    I'd like to begin this hearing by welcoming all the members of our 
Subcommittee, including our new Ranking Member, Congresswoman Titus. I 
am honored to have the opportunity to continue Chairing the DAMA 
Subcommittee this Congress and look forward to working with all of you. 
It is my hope that we will all come together in a bi-partisan way and 
share ideas to best serve our Nation's veterans and find practical 
solutions to the issues before this Subcommittee.
    Our hearing topic today will focus on temporary total disability 
ratings. Temporary total disability ratings serve a very important 
function in the benefits scheme. This type of rating is assigned when 
it is established by medical evidence that surgery or certain treatment 
was performed, necessitating a period of recovery during which the 
veteran cannot work.
    However, according to a January 2011 report by the VA Office of the 
Inspector General, VBA has not been correctly processing and monitoring 
such claims. As a result, the OIG stated that since January 1993, VBA 
has overpaid veterans a net amount of $943 million. The OIG also stated 
that without timely action, VBA would overpay veterans a projected $1.1 
billion over the next five years.
    These numbers are troubling, to say the least. As all of us here 
today are aware, our Nation's fiscal health is one of this Congress's 
top priorities. Part of this process includes trimming government 
spending and eliminating government waste. It is my hope that by 
bringing attention to this topic, we can ensure that every dollar 
appropriated to VA is being spent properly on care and benefits for our 
veterans.
    We heard from VA in June of last year during sworn testimony, that 
these errors were due to a computer glitch. VA advised that the glitch 
would be fixed by July 2012.
    Nonetheless, two new Regional Office audits issued by the OIG last 
month found that 50 percent of the temporary 100 percent disability 
evaluations reviewed were incorrect. The explanations given in the OIG 
audits stated that the 50 percent accuracy rate occurred because staff 
did not establish controls to monitor the proposed reductions 
initially, nor did they schedule future medical examinations as 
required.
    So--something doesn't add up here. If the computer glitch was fixed 
in July 2012 but over 50 percent of temporary total rating claims are 
still being processed incorrectly as of January 2013, then that leads 
me to believe that these are human errors, not computer errors.
    All of us here today are well-aware of the growing workload faced 
by claims examiners. However, we must remember that even though each VA 
employee touches many veterans' files every day, an individual veteran 
has only one file, so it's important to process every claim correctly 
the first time.
    I want to thank the Vietnam Veterans of America, the OIG, and VA 
for their valuable input as we work together to find a solution to this 
problem.
    I welcome today's witnesses to continue this ongoing discussion and 
offer their own specific recommendations on how to improve not just 
temporary total disability claims processing, but the entire system of 
processing veterans' disability claims.
    I would now call on the Ranking Member for her opening statement.

                                 <F-dash>
                 Prepared Statement of Hon. Dina Titus
    Mr. Chairman, I would like to thank you for holding today's hearing 
and to our witnesses for appearing before the Subcommittee today.
    As the new Ranking Member of the Subcommittee on Disability 
Assistance and Memorial Affairs, I look forward to working with you, 
Mr. Chairman, the other Members of this Subcommittee and all of our 
stakeholders to tackle the claims backlog, ensuring that our nation's 
veterans receive the benefits they have honorably earned and rightfully 
deserve.
    Today we are here to examine the issue of 100 percent temporary 
disability ratings. We know that for our most wounded warriors, a 100 
percent disability rating provides compensation when a disability 
prevents them from seeking gainful employment.
    But in January 2011, the VA Office of the Inspector General 
discovered that 15 percent of these rating evaluations were being 
incorrectly processed. The IG projects that these errors will cost the 
VA $1.1 billion in overpayments during the next five years.
    At the Reno VA Regional Office, which serves my Congressional 
District in Southern Nevada, the Inspector General found that over half 
of the temporary 100 percent disability evaluations were incorrectly 
processed. While a number of these cases involve overpayments, some 
veterans are being underpaid as well, particularly as it relates to 
special monthly compensation. For example, the audit of the Reno Office 
found one veteran with service-connected bone cancer and prostate 
cancer who was underpaid nearly $10,000 over a period of three years.
    The IG reported that 93 percent of the errors could have easily 
been avoided through three seemingly simple fixes:

    1. If follow-up exam dates were entered in the electronic record;

    2. If calendar notifications were observed and not just ignored or 
overlooked; and

    3. If staff secured the proper medical evidence before switching a 
veteran's evaluation to a permanent rating.

    I was concerned when I learned that the IG has found the similar 
errors in all 42 regional offices inspected since this initial audit 
with an average of 62 percent of these evaluations still being 
processed inaccurately.
    It is my understanding that following this audit, in July of 2011, 
the VA instituted a technical fix to their computer systems that 
eliminates the potential for many of the instances of human error that 
the IG found in their January 2011 Report. I look forward to Deputy 
Under Secretary Rubens' testimony on the results that these software 
changes have had on the claims management systems.
    I hope today's hearing will shed light on why there still seems to 
be problems in this area, two years after the IG report, and after the 
VA took steps to address these concerns. Is this a problem with 
systems, with training, with accountability, or a combination of these 
factors?
    I hope we will discuss what system fixes have been made, and what 
management and employee accountability procedures have been implemented 
since the IG report to prevent these types of inaccuracies. I hope at 
the end of this hearing that we will reach a consensus on how to 
address and fix these problems today, and, looking forward, how we 
ensure they do not happen in the future.
    Thank you, Mr. Chairman. I yield back.

                                 <F-dash>
                   Prepared Statement of Rick Weidman
    Good afternoon, Mr. Chairman, Ranking Member Titus, and 
distinguished Members of the Subcommittee. Thank you for giving Vietnam 
Veterans of America (VVA) the opportunity to offer our comments on the 
issues regarding the 100% temporary disability ratings with this 
distinguished committee today.
    We have reviewed the three reports from the Inspector General of 
the U.S. Department of Veterans Affairs (VA) that were issued earlier 
this month, VA OIG 12-02089-60, January 3. 2-13, entitled ``Inspection 
of VA Regional Office Anchorage, Alaska''; VA OIG 12-03355-88, January 
11, 2013, entitled ``Inspection of VA Regional Office Detroit, 
Michigan''; and VA OIG 09-03359-71, January 24, entitled ``Veterans 
Benefits Administration-Audit of 100 Percent Disability Evaluations.''
    We have analyzed all three reports looking for common threads, and 
much of the problem is simply failure to consistently use the 
procedures and tools that are in place. It is clear that the same issue 
we have all been pressing on for some years, lack of management 
oversight, is the problem that causes the failure to follow correct 
procedures. Some of this is because there is not proper accountability 
mechanisms for managers, and part of it is due to insufficient 
resources overall in Compensation & Pension (C&P).
    As to a general statement regarding management, VVA firmly believes 
the military axiom applies here: that a unit does well that which a 
commander checks well. The huge delays (up to 900 days in one instance) 
simply are something that should not ever occur.
    The Veterans Benefits Administration (VBA) management can do a 
better job of teaching staff how to better and more accurately 
adjudicate claims, as well as how to work better with the veterans' 
service organizations, as well as state and county representatives so 
that there are more fully developed claims coming into the system. VVA 
and others have been suggesting/urging joint training for some time, 
but it has yet to happen at any level, to our knowledge. The more 
complete and better organized these claims are when they are received 
by the Regional Office staff, the more quickly and accurately they can 
be adjudicated. If both the VBA staff and the VSOs, et.al. are at least 
working off of the same knowledge base, albeit a different perspective, 
then it is much easier to reach an accurate decision quickly, one that 
is to the satisfaction of all in more than nine out of ten cases. 
Common/joint training was a recommendation from this committee almost 
ten years ago, but nothing has ever come of it.
    A word about overall resources at VBA would be in order here. While 
the budget and the number of personnel at the Veterans Health 
Administration (VHA) increased dramatically to handle a mounting 
workload, especially in the period from 2006 to 2010, the VBA gains in 
resources and staff during that same period did not keep pace with the 
increase in the overall increase in both the number of claims filed 
with C&P, and at the same time a sharp increase in the complexity of 
cases filed.
    While VBA ``Fast Letters'' and other directives are by and large 
well intended, and usually reasonably well thought out, the ``word'' 
often does not reach the individual staff member in a Regional Office 
in such a way as to modify either their understanding of an issue nor 
their behavior in applying that understand to individual claims. The 
technical term, of course, is ``bureaucratic slippage.'' While that is 
common in any governmental organization, it is particularly a problem 
when a large system is ``under stress.''
    There has been an acknowledged issue of a serious backlog of C&P 
claims since at least 1998. Two Presidential Administrations in a row 
have taken office vowing to eliminate this ``backlog'' thing that has 
become a dark and foreboding backdrop to all that occurs at VBA. All 
agree that the real task is to modernize this paper system, and drag it 
into the 21st century. The ``backlog'' has now continued under the last 
five Secretaries and two Acting Secretaries of Veterans Affairs. VBA 
has been under stress for all of this time, which is well more than a 
decade.
    All of this has taken a real toll on this system and the people in 
it. Some of the failures to pick up on major errors or ensure that 
basic tools are consistently utilized to avoid either overpayments or 
underpayments is simply organizational fatigue. This does not excuse 
these failures, but it does help us to understand it better.
    The real solutions to the problem(s) facing C&P are to be found in 
the need to automate much of the system. VBA is finally on the right 
track in seeking to use open architecture computer systems in such a 
way that much of the direct contact with human beings can be 
eliminated, thereby avoiding the possibility of a rule not applied or 
applied incorrectly to one or more elements in a claim by a staff 
member who ``did not get the word'' at one or more Regional Office.
    Using automation the rules would be consistently applied no matter 
where one lives in the nation. The only way to do that is to set as 
many claims as possible up in such a way that the applicant veteran can 
enter his/her own data and apply via the secure ``e-benefits'' web 
portal. It is our understanding that later this year a veteran will be 
able to add or drop a dependent on line, without the necessity to have 
a staff person do it for them. (This does not address the stacks of 
more than 180,000 claims to be ``adjusted'' that are not counted in the 
overall number that is currently acknowledged as the backlog. Many of 
these adjustments are vitally important, as not addressing them in a 
timely way means that Champ VA is not applied to newborn dependents 
until quite some time later. Needless to say, the healthcare needs of 
both the mother and child do wait on VBA to get around to the 
``adjustments.'')
    We understand the concern the committee has with the possibility of 
overpayments of temporary payments at the 100% level. Let us suggest 
that this can be addressed by automation in two ways that do not 
require additional computer capacity beyond what is already planned:
    First, we urge that the VBA send a monthly ``Statement of Account'' 
to the through the ``E-Benefits'' portal to all veterans receiving 
funds from VA for any purpose, informing them of each element of 
amounts paid, and the purposes for which VA made each of these 
payments.
    Part of the message in that same letter can/should be to 
automatically inform veterans receiving a temporary disability that it 
is their responsibility to seek out a medical exam after a certain 
date, and/or if their condition significantly approves.
    Similarly, our leadership in Alaska has informed us that many 
attending higher education on the 21s5t century GI Bill get a different 
amount each month, with no explanation as to what each varying amount 
is for. The ``Statement of Account'' via secure electronic 
communication would remedy this problem.
    Let me note that VVA's concern with overpayments is that like 
others we are concerned that the taxpayer's money is used correctly. 
Additionally though, overpayments do as much or greater damage than 
underpayments because when there comes the inevitable move to recoup 
these funds, veterans' credit often takes a whack from which they may 
never recover, so it is important that both under and over payments be 
avoided.
    Finally, VVA urges the Committee in the strongest possible terms to 
do all that is necessary to ensure that the computerization funds for 
VBA do not get decimated. We are aware that they are unlikely to get 
any more staff at this juncture (although a strong case can be made for 
this need), so it is important that the move to computerize as much as 
possible not be derailed at this critical juncture.
    Mr. Chairman and distinguished Members on this panel, VVA thanks 
you for the opportunity to present our views here today. I will be 
pleased to answer any questions you or your colleagues may have.

                      VIETNAM VETERANS OF AMERICA
                           Funding Statement
                            February 5, 2013

    The national organization Vietnam Veterans of America (VVA) is a 
non-profit veteran's membership organization registered as a 501(c) 
(19) with the Internal Revenue Service. VVA is also appropriately 
registered with the Secretary of the Senate and the Clerk of the House 
of Representatives in compliance with the Lobbying Disclosure Act of 
1995.
    VVA is not currently in receipt of any federal grant or contract, 
other than the routine allocation of office space and associated 
resources in VA Regional Offices for outreach and direct services 
through its Veterans Benefits Program (Service Representatives). This 
is also true of the previous two fiscal years.
    For Further Information, Contact: Executive Director for Policy & 
Government Affairs, Vietnam Veterans of America, (301) 585-4000, 
extension 127

                                 <F-dash>
                  Prepared Statement of Linda Halliday
INTRODUCTION
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to discuss issues related to the effectiveness of the 
processing of temporary 100 percent disability ratings by Veterans 
Affairs Regional Offices (VARO) that were identified in an Office of 
Inspector General (OIG) audit report in January 2011 and that continue 
to be reported in OIG Benefits Inspections reports to date. I am 
accompanied by Mr. Brent Arronte, Director, OIG San Diego Benefits 
Inspection Division, and Mr. Larry Reinkemeyer, Director, OIG Kansas 
City Audit Operations Division.
BACKGROUND
    Delivering timely and accurate benefits and services to veterans is 
central to VA's mission. The Veterans Benefits Administration (VBA) is 
responsible for administering a range of veterans benefits programs, 
including compensation, pension, education, home loan guaranty, 
vocational rehabilitation and employment, and life insurance. These 
programs will pay out over $76 billion in claims to veterans and their 
beneficiaries in fiscal year (FY) 2013, and comprise approximately half 
of VA's total budget.
    Processing 100 percent disability evaluations comprises one part of 
VBA's claims workload. VBA policy allows veterans to receive 100 
percent disability evaluations for impairments of mind or body that 
would make it impossible for the average person to pursue a 
substantially gainful occupation. These impairments may be permanent or 
temporary. VBA policy requires a temporary 100 percent disability 
evaluation for a service-connected disability following a veteran's 
surgery or when specific treatment is needed. At the end of a mandated 
period of convalescence or treatment, VARO staff are required to 
request a follow-up medical examination if available evidence is not 
adequate to help determine whether to continue the veteran's 100 
percent disability evaluation.
    The OIG's work over the past 3 years has disclosed systemic 
problems in VBA's processing of these disability evaluation decisions. 
Specifically, our 2011 report, Audit of 100 Percent Disability 
Evaluations, identified veterans receiving long-term payments caused by 
significant VARO processing errors, leading to veterans receiving long-
term payments to which they were not entitled. We have repeatedly 
identified the same problems in our VARO Inspections Program, where we 
inspect the 57 VAROs and follow up on national audit findings such as 
VBA's accuracy in processing temporary 100 percent disability 
evaluations.
    After 3 years, and despite VBA concurrence with our audit and 
inspection reports, we continue to identify a high rate of VARO errors 
in the processing of temporary 100 percent disability ratings. VBA's 
efforts to improve accuracy in this area have not been adequate or 
timely.
OIG REPORTING ON PROCESSING ACCURACY
Audit of 100 Percent Disability Evaluations

    Veterans' disability compensation payments are not usually an 
avenue for cost savings. However, 100 percent disability evaluation 
processing is one area where systemic problems have led to veterans 
receiving long-term payments to which they may not be entitled but not 
caused by any fault of their own. Our 2011 national audit detailed our 
concerns that VBA paid veterans temporary 100 percent benefits without 
adequate medical evidence. We projected that regional office staff did 
not correctly process claims for about 27,500 (15 percent) veterans 
with 100 percent ratings and that since January 1993 VBA had overpaid 
these veterans a net amount of about $943 million. Without timely 
corrective action, we conservatively projected that VBA would overpay 
veterans $1.1 billion over the period of calendar year 2011 through 
calendar year 2015. We noted that once a temporary 100 percent rating 
has been in place for 20 years, by law VBA cannot reduce the rating 
unless the veteran has committed fraud in obtaining the benefits. The 
law, as clarified in VBA's policies, prohibits creating overpayments in 
cases involving erroneous awards based solely on VBA administrative 
errors or errors in judgment. While these practices rightfully protect 
veterans from suffering financial loss due to staff errors, sound 
financial stewardship is required to ensure actions are taken to 
process accurate payments in the future.
    VBA did not agree with all our report findings, particularly as 
they related to projected overpayment projection of $1.1 billion over 
the next 5 years. We obtained our overpayment estimates through a valid 
statistical methodology, which was developed by our Director of Audit 
Statistics Division. It was reviewed and approved by the OIG Office of 
Healthcare Inspections Director of Biostatistics, who holds a PhD in 
statistics.
    VBA believed our analysis was skewed and the sample was not truly 
random. Our audit focused on those areas that presented the highest 
risk to VBA. Therefore, of the 239,000 veterans with at least one 
service-connected condition rated 100 percent disabling, we excluded 
58,000 veterans from our review because their medical condition was not 
likely to improve, such as a double amputee. Our sample is 
representative of the stated audit universe of 181,000 veterans. We 
selected random samples from the audited universe and properly weighted 
projections based on the sample design. The sample design and size was 
more than sufficient to allow the assumption of a normal sampling 
distribution across the stated universe. In accordance with accepted 
sampling procedures, we projected the number of errors and potential 
monetary benefits only to the population we reviewed. The report 
clearly states that VARO staff did not correctly process evaluations 
for about 27,500 (15 percent) of the approximately 181,000 veterans who 
might require periodic evaluations. Although the error rates may have 
been less had we included the 58,000 veterans in our universe, the 
potential monetary benefits could have potentially increased since we 
would have projected to a universe of $73 billion instead of $52 
billion.
    The primary message of our report is VBA paid veterans without 
adequate medical evidence and the management of temporary disabilities 
needs strengthening. VBA approved significant monthly benefits to 
veterans without knowing if the veteran's medical condition warranted 
the continued benefit.
    VBA agreed to implement our recommendations to:

    <bullet>  Improve the electronic system so future medical exam 
dates would automatically populate in the electronic system.
    <bullet>  Provide training to VARO staff to take appropriate and 
timely action on medical examination reminder notifications.
    <bullet>  Conduct a review of all temporary 100 percent disability 
evaluations and ensure each evaluation has a future medical examination 
date entered in the veterans' electronic records.

    In response to this last recommendation, the then Acting Under 
Secretary for Benefits agreed to review all temporary 100 percent 
disability evaluations and ensure each evaluation had a future 
examination date entered in the electronic record. Our report stated, 
``If VBA does not take timely corrective action, they will overpay 
veterans a projected $1.1 billion over the next 5 years.'' The then 
Acting Under Secretary for Benefits stated in response to our audit 
report that the target completion date for the national review would be 
September 30, 2011. VBA subsequently extended the national review 
deadline to December 31, 2011, then to June 30, 2012, and then again to 
December 31, 2012.
Results from OIG Inspections of VA Regional Offices
    Our benefits inspections continue to show that inaccuracy in 
processing temporary 100 percent disability evaluations is a systemic 
issue. In October 2009 while conducting the national audit, we also 
began our VARO Inspections program which includes reviews of the 
temporary 100 percent disability evaluations. None of the 53 VAROs we 
have inspected since then have fully followed VBA policy in processing 
these evaluations. Based on our claims sampling, we determined that 
VARO staff did not adequately process temporary 100 percent evaluations 
for 1,016 (66 percent) of 1,551 veterans. All 53 \1\ VAROs inspected 
had errors, with the Cheyenne Veterans Service Center at the top of the 
list with errors in 100 percent of the evaluations we sampled, and the 
Des Moines, Iowa, and the Lincoln, Nebraska, VAROs with the best 
performance in this area with a processing error rate of 27 percent. 
The attached chart shows the accuracy rate of temporary 100 percent 
disability evaluations for all 53 VAROs from our first 3-year cycle, 
including 2 inspections we have completed since the start of our second 
3-year cycle.
---------------------------------------------------------------------------
    \1\ The 53 total includes 2 inspections of the VARO in Detroit, 
Michigan.
---------------------------------------------------------------------------
    These errors often occur when VARO staff fail to input suspense 
diaries to VBA's electronic record. A suspense diary is a system 
command establishing a future date when VARO staff must determine the 
need to schedule an examination to reevaluate a case. As a diary 
matures, the electronic system generates a reminder notification to 
alert VARO staff to schedule the mandatory reexamination. About 46 
percent of the total processing errors we identified since our 
inspections began occurred when VARO staff did not input suspense 
diaries in VBA's electronic system as mandated by VBA policy. When 
there is no reminder to schedule a reexamination, the temporary 100 
percent disability evaluation will continue throughout a veteran's 
lifetime because nothing calls such cases into question again for 
reexamination.
    The electronic system works as designed when a reminder 
notification is generated, alerting VARO staff to schedule a mandatory 
reexamination. However, in 15 percent of the total processing errors, 
reminder notifications existed, but VARO staff did not process them, or 
they prematurely cancelled the notifications. In these instances, VARO 
staff either failed to take the appropriate action to schedule the 
medical reexaminations or they removed the diaries prior to the system 
generating notifications to schedule medical follow-up.
    As a result of the 53 VAROs we assessed for temporary 100 percent 
disability evaluations since October 2009, our inspections have 
identified a total of just over $15,500,000 in overpayments and almost 
$283,000 in underpayments. Where we identify claims processing 
inaccuracies, we provide this information to help the VARO improve 
future performance. Processing any adjustments based on this review is 
solely a VBA management decision.
    In response to our inspection reports, VARO Directors concurred 
with all of our recommendations to increase process oversight and 
provide staff training on the proper procedures for ensuring the 
accuracy of temporary 100 disability evaluations. In many VAROs the 
recommendations are acted upon during the course of our site visits.
VBA'S CORRECTIVE ACTIONS
    VBA efforts have not been aggressive enough to effectively address 
this issue. VBA did not provide each VARO with a list of temporary 100 
percent disability evaluations for review until September 2011. VBA 
subsequently extended the national review deadline multiple times, with 
the most current deadline of December 31, 2012. We found some VAROs 
still completing their reviews as of January 2013. After 2 years, VBA 
is still working to complete this national review requirement. We are 
concerned about the lack of urgency in completing this review, which is 
critical to minimizing the financial risks of making inaccurate 
benefits payments.
    We also question VBA's methodology for identifying temporary 100 
percent disability evaluations for national review. During several of 
our inspections, we identified in our sample data a number of cases 
that VBA did not include in the lists it provided to the VAROs for 
national review. Upon our review of VBA's methodology, we found it had 
several weaknesses that would not ensure as thorough a review as VBA 
originally indicated. For example, VBA's methodology excluded certain 
claims that had controls in the electronic system to generate reminder 
notifications, with the assumption that processing these claims would 
therefore be done correctly. We also identified errors associated with 
some cases they excluded that, as we found before, related to VARO 
staff not taking proper action on reminder notifications or prematurely 
cancelling these notifications.
    VBA has insisted that system glitches are the reason for many of 
the errors related to temporary 100 percent disability evaluation 
processing. In June 2011, VBA officials modified the electronic system 
to ensure diary dates would automatically populate and remain in the 
system without manual entry, specifically for confirmed and continued 
(C&C) ratings. For C&C ratings, medical evidence does not necessitate 
changing the veterans' existing disability evaluations. For example, a 
veteran receives a temporary 100 percent evaluation for prostate 
cancer. Medical evidence from the reexamination to determine if the 
evaluation should continue shows the veteran still receives treatment 
for this condition. Therefore, the Rating Veterans Service 
Representative confirms the veteran remains entitled to the temporary 
100 percent evaluation and decides to continue the evaluation until the 
next required reexamination period, as established by diaries.
    Of the total errors we have identified related to suspense diaries, 
37 percent involved C&C ratings. We have not tested this system 
modification to ensure that the suspense diaries remain in the system. 
As such, we have no assurance that it has resulted in a system-wide 
correction. However, as part of our inspections, we observed a small 
number of recently processed temporary 100 percent disability 
evaluations related to C&C decisions and noted that the suspense 
diaries stayed in the electronic record. Since the exam dates occur in 
the future, we cannot ensure that the electronic system will generate 
notifications to alert VARO staff to schedule medical reexaminations as 
required.
    Further, in August 2012, VBA made a second modification to its 
electronic system to ensure that supplemental changes to the electronic 
record, such as processing additional claims, would not cause diary 
dates to be removed inadvertently from the electronic system. However, 
we have not observed this process to offer an opinion on it. Because 
OIG Benefit Inspections staff sample completed claims from the prior 
quarter, we will not be able to confirm whether this system 
modification works until we conduct inspections beginning in late 
January 2013 that would examine first quarter FY 2013 data. 
Nonetheless, we note that VBA did not make this system modification 
until 20 months after our original audit was issued in January 2011.
    VBA's focus on system fixes has not addressed the staff errors we 
frequently found to be the cause of inadequacies in temporary 100 
percent disability evaluation processing. As we proceed with our 
benefits inspections, we continue to find processing errors associated 
with temporary 100 percent evaluations caused by staff error. For 
example, we still find cases where VARO staff do not correctly schedule 
medical reexaminations when the system properly generates reminder 
notifications. We also continue to disclose problems of staff 
prematurely canceling the reminder notifications. Our FY 2012 VARO 
inspection reports show 388 (63 percent) of 614 evaluations processed 
incorrectly, resulting in 101 overpayments to veterans of approximately 
$6.1 million, and 10 underpayments at a cost of $78,000.
CONCLUSION
    After 3 years of OIG reporting on inaccuracy issues, VARO error 
rates in processing temporary 100 disability evaluations remain 
consistently high. While VBA criticizes that our inspections are 
narrowly scoped and our claims samples are small, our work is 
statistically sound and illustrates a continuing, systemic weakness 
that must be addressed.
    VBA's efforts to date have not been fully effective in addressing 
issues in processing its temporary 100 disability evaluations. VBA has 
not been aggressive, timely, or thorough in completing its national 
review. While electronic system fixes may resolve some issues, they do 
little to address the problem we continue to find with staff error in 
processing. As long as VBA delays taking effective action to address 
this issue, VA is at risk of underpaying some veterans and repeatedly 
overpaying others without proper support thereby diverting millions of 
dollars from other important programs for America's veterans today and 
into the future.
    Mr. Chairman, this concludes my statement. We would be pleased to 
answer any questions that you or other Members of the Subcommittee may 
have.
                               ATTACHMENT

     Errors in Processing Temporary 100 Percent Disability Evaluations and Associated Overpayments and Underpayments Identified In 53 VARO Inspection
                                                                   Reports Since 2009
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                        Total Temporary
                                                        100 Disability                                               Overpayments        Underpayments
    53 VAROs (in rank order by percent of errors)         Evaluations        Total Errors      Error Percentage       Identified          Identified
                                                           Reviewed
--------------------------------------------------------------------------------------------------------------------------------------------------------
Cheyenne                                                              7                   7                100%            $190,458                  $0
Los Angeles                                                          30                  29                 97%            $922,886                  $0
Waco                                                                 30                  28                 93%            $115,255              $7,720
Detroit                                                              30                  27                 90%            $543,399              $1,344
Pittsburgh                                                           30                  27                 90%            $228,712                  $0
Houston                                                              30                  27                 90%            $730,768                  $0
Honolulu                                                             30                  26                 87%            $197,185                  $0
Phoenix                                                              30                  26                 87%            $192,165                  $0
Philadelphia                                                         30                  25                 83%            $389,770             $29,969
Boston                                                               30                  25                 83%            $106,133                  $0
Louisville                                                           30                  25                 83%            $596,484                  $0
Indianapolis                                                         30                  25                 83%          $1,043,400              $1,248
St. Petersburg                                                       30                  25                 83%            $387,252                  $0
Albuquerque                                                          30                  24                 80%            $306,162                  $0
Jackson                                                              30                  24                 80%            $123,338                  $0
Newark                                                               30                  24                 80%            $498,123              $9,743
New Orleans                                                          30                  24                 80%            $431,033              $8,974
Atlanta                                                              30                  24                 80%            $287,067              $2,769
San Diego                                                            30                  23                 77%            $319,255             $20,531
Fargo                                                                30                  23                 77%            $697,010              $3,143
Denver                                                               30                  22                 73%            $757,672                  $0
Huntington                                                           30                  22                 73%          $1,254,007              $4,173
Columbia                                                             30                  21                 70%            $440,156                  $0
Boise                                                                30                  20                 67%            $307,679              $2,240
New York                                                             30                  20                 67%            $250,087                  $0
St. Louis                                                            30                  20                 67%            $117,856              $1,536
Providence                                                           30                  20                 67%             $43,350             $30,626
Montgomery                                                           30                  19                 63%            $117,333                  $0
Togus                                                                30                  18                 60%             $39,356              $2,497
Reno                                                                 30                  18                 60%            $399,638              $9,930
Hartford                                                             30                  18                 60%            $151,265                  $0
Little Rock                                                          30                  18                 60%             $44,250                  $0
Detroit*                                                             30                  18                 60%            $231,436             $16,515
Manila                                                               14                   8                 57%            $177,152             $13,936
Seattle                                                              30                  17                 57%             $97,981                  $0
Buffalo                                                              30                  17                 57%            $124,552             $45,356
Muskogee                                                             30                  16                 53%                  $0              $9,874
Portland                                                             30                  16                 53%            $137,262                  $0
Cleveland                                                            30                  16                 53%            $561,519              $8,175
Salt Lake City                                                       30                  16                 53%            $113,834             $11,674
Oakland                                                              30                  16                 53%            $284,256              $1,223
Wichita                                                              30                  16                 53%            $134,210                  $0
St. Paul                                                             30                  15                 50%            $239,453              $6,204
White River                                                          30                  15                 50%            $531,825                  $0
Winston-Salem                                                        30                  15                 50%             $87,513              $1,152
Anchorage                                                            30                  15                 50%            $139,177             $19,220
Manchester                                                           30                  14                 47%             $66,550                  $0
Milwaukee                                                            30                  14                 47%            $100,824                  $0
Chicago                                                              30                  13                 43%             $40,275             $12,414
Ft. Harrison                                                         30                  10                 33%              $2,823                  $0
Sioux Falls                                                          30                   9                 30%             $61,606                  $0
Des Moines                                                           30                   8                 27%            $415,648                  $0
Lincoln                                                              30                   8                 27%             $17,241                  $0
Totals                                                            1,551               1,016                 66%         $15,793,641            $282,186
--------------------------------------------------------------------------------------------------------------------------------------------------------

    *Note: Overpayment and underpayment dollar amounts are not included 
in the published Detroit VARO inspection report. Also, Detroit is also 
the only VARO listed that we have inspected twice since 2009.

                                 <F-dash>
                Prepared Statement of Hon. Diana Rubens
    Good morning Chairman Runyan, Ranking Member Titus, and Members of 
the Subcommittee. Thank you for the opportunity to discuss the Veterans 
Benefits Administration's (VBA's) administration of the temporary 100-
percent disability rating. We recognize the critical importance of 
providing this benefit to our Veterans, which allows them to receive 
compensation at the 100-percent rate during the times they are most in 
need. We also recognize our obligation to ensure proper administration 
of the benefit to Veterans and good stewardship of taxpayers' dollar.
Temporary 100-Percent Disability Rating
    VA regulations authorize a 100-percent disability rating under 
specific criteria tied to individual disabilities, or when any service-
connected impairment of mind or body makes it impossible for a Veteran 
to pursue a substantially gainful occupation. These 100-percent 
disability ratings can be granted on either a temporary or permanent 
basis. VBA grants a permanent rating if medical evidence shows the 
Veteran's total disability is not likely to improve. The 100-percent 
disability rating is generally held to be permanent when no routine 
future examination is warranted. Additionally, if a 100-percent rating 
has been in place for 20 years, VBA cannot reduce the rating unless the 
Veteran committed fraud in obtaining the benefits.
    Temporary 100-percent disability ratings are often awarded when 
service-connected disabilities require complex surgery, convalescence, 
or specific inpatient or intense treatment, such as radiation or 
chemotherapy in the case of most cancers. At the end of a mandated 
period of convalescence or following cessation of treatment, VBA is 
responsible for reviewing the Veteran's medical condition to determine 
whether to continue the temporary 100-percent rating. Generally, 
medical examinations are required if there is potential for improvement 
in a disability that might lead to a decreased disability rating. If a 
medical examination shows material improvement in the Veteran's 
condition, and VBA determines that a reduced rating is necessary, then 
VBA initiates action to reduce benefits. When VBA proposes a reduction 
in benefits, the beneficiary is notified that he or she has 60 days to 
submit additional evidence and/or request a pre-reduction hearing.
National Audit of 100-Percent Disability Ratings
    On January 24, 2011, the Department of Veterans Affairs (VA) Office 
of Inspector General (OIG) released the report of its audit of 
temporary 100-percent disability ratings. The audit examined two areas: 
whether VBA regional offices (ROs) correctly assigned 100-percent 
disability ratings as either permanent or temporary and whether ROs 
effectively monitored and reevaluated temporary 100-percent disability 
ratings.
    The audit found that temporary 100-percent disability ratings were 
not being correctly monitored for reevaluation. The OIG identified 
three primary causes: Staff did not (1) enter future medical 
examination dates into VBA's electronic records; (2) monitor automated 
notifications entered into VBA's electronic records; and (3) comply 
with VBA regulations that require ROs to ensure a Veteran's condition 
was not likely to improve before assigning permanent evaluation.
    The OIG made seven recommendations, including a recommendation that 
VBA review all temporary 100-percent disability ratings to ensure each 
evaluation had a future examination date entered in the Veteran's 
electronic record. VBA agreed to implement all of the recommendations.
System Problem in Future Examination Processing
    In September 2010, during the course of the OIG audit, VBA 
identified a system software problem that was causing many properly 
established future examination dates to drop out of the system, 
contributing significantly to the problems being identified by the OIG. 
VBA found that the premature removal of future examination dates 
occurred in three scenarios. Without these future dates in the system, 
our employees did not receive notification to schedule these Veterans 
for medical examinations to reevaluate their conditions. After 
extensive analysis, VA determined that the complexity of the system 
requirements for future examination processing required a complete 
redesign of that system functionality.
    VBA completed business requirements for the redesign, and new 
system functionality for future-examination processing was deployed on 
July 2, 2012. This redesign successfully corrected the previously 
identified system defects.
VBA Review of Temporary 100-Percent Ratings
    VBA conducted three separate claims reviews while system changes 
were being made to ensure future-examination dates were properly 
recorded for temporary 100-percent ratings and to schedule medical 
examinations for those Veterans who were overdue for reevaluation. VBA 
established a system control for each identified record so corrective 
action could be taken.
    In the course of the reviews, VBA continued to identify cases that 
were not under proper control to be tracked for completion of all 
required actions - either because proper corrective action had not yet 
been taken or had been taken prior to July 2012 and the future date had 
again dropped from the system. To address this concern, a backup 
process was put in place to identify cases without a future examination 
date established and require review of these cases to either establish 
a future date or ensure the rating decision correctly documented that 
the 100-percent rating had been established as permanent.
    Because the input of future-examination dates remains a manual 
input process in VBA's current legacy processing system, VBA is now 
conducting this backup process every two weeks to ensure that all 100-
percent ratings are appropriately identified in our system as either 
temporary (with a future examination scheduled) or permanent.
Training on Future Examination Processing
    VBA also continues to provide extensive training for claims 
processors on inputting future exams:

    <bullet>  Future examination training is provided to all new claims 
processors during the initial training for new claims processors, known 
as Challenge training.
    <bullet>  Since fiscal year (FY) 2010, Rating Veterans Service 
Representatives (RVSRs) have been required to complete the training 
lesson plan on Rating Reductions. This lesson plan addresses the use of 
future examinations.
    <bullet>  In January 2011, Compensation Service amended the 
mandatory ``Matching Programs'' training lesson plan for Veterans 
Service Representatives (VSRs). This amended training lesson provides 
claims processors with instructions on the appropriate actions to take 
when processing claims with future examination dates. Supplemental 
material regarding future examinations was provided in mandatory 
National Core Curriculum training for all VSRs.
    <bullet>  In March 2011, a lesson on permanent and total ratings 
was mandated for all RVSRs. This lesson included information concerning 
the establishment of future examination dates.
    <bullet>  In March 2012, Compensation Service created a mandatory 
lesson plan on ``Inferred Issues'' for RVSRs that focuses on 
determining when a future examination is required. The training 
provides an additional reminder to the field to ensure that future 
examination dates were not omitted from the award.
    <bullet>  In June 2012, Compensation Service released two mandatory 
training lessons for RVSRs. These were entitled ``Effective Dates'' and 
``Subordinate Issues'' and were required training during FY 2012. Both 
of these lessons address the proper use of future examinations.

VBA Transformation
    VBA is in the midst of implementing a series of tightly integrated 
people, process, and technology initiatives designed to eliminate the 
claims backlog and achieve our goal of processing all claims within 125 
days at a 98-percent quality level in 2015. VBA is developing and 
deploying technology solutions that drive automation of the claims 
process. Our new paperless processing system, the Veterans Benefits 
Management System (VBMS), is employing rules-based functionalities that 
will allow VBA to more effectively monitor and timely adjust temporary 
100-percent ratings.
    VBMS software requires the decision-maker to either establish the 
permanency of the 100-percent rating or establish a future examination 
diary. Once VBMS is in place nationwide, these rule sets will ensure 
compliance with business rules and procedures associated with 100-
percent ratings.
Estimated Overpayments
    Based on the audit findings, the OIG projected that VBA has paid 
Veterans a net amount of $943 million without adequate medical evidence 
since January 1993. Further, the OIG projected that if corrective 
action was not taken, VBA would overpay Veterans another $1.1 billion 
over the next five years. VBA believes the overpayment projection of 
$1.1 billion over the next five years is significantly overstated.
    VBA believes OIG's overall error rate in the report of 15-percent 
is overstated. OIG reduced the population from which to sample by 
approximately 58,000 Veterans with conditions that clearly indicated no 
likelihood of improvement, such as double amputees. VBA believes that 
removing 58,000 presumed error-free cases skewed the analysis and 
caused sampling to no longer be truly random.
    VBA reviewed records for eight of the top overpayments that were 
identified by the OIG, and found that three of these cases (38-percent) 
still warranted 100-percent ratings or payment at the 100-percent rate. 
Therefore, potentially 38 percent of the errors used to make monetary 
projections may not be valid.
    Nevertheless, VBA agrees that significant overpayments were 
occurring as a result of not timely reevaluating all cases with 100-
percent temporary ratings.
Conclusion
    VBA is committed to providing timely and accurate payments to 
Veterans while ensuring proper stewardship of taxpayers' dollar. VBA 
has already taken significant corrective actions (including case 
reviews, legacy system software changes, mandatory training, increased 
oversight, and technology enhancements in our new VBMS paperless 
processing system currently being deployed) to ensure temporary 100-
percent ratings are effectively monitored and adjusted. At the same 
time, we acknowledge that our regional offices have not yet completed 
action on all of the individual cases requiring review. We will 
continue to carefully monitor these cases to completion and partner 
with OIG to ensure we are providing our Veterans with timely and 
accurate benefit payments. Mr. Chairman, this concludes my statement. I 
would be pleased to answer any questions you or other Members of the 
Subcommittee may have.

                                 <F-dash>
                        Statement For The Record

    Mr. Carl Blake, National Legislative Director, Paralyzed Veterans 
of America

    Chairman Runyan, Ranking Member Titus, and members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to offer our views on the Department of 
Veterans Affairs (VA) use of the 100 percent temporary total disability 
rating. First, we must emphasize that this type of rating is rarely 
used for the veterans that PVA serves through our national service 
staff. When we file claims on behalf of our members--veterans with 
spinal cord injury or disorder--and other catastrophically disabled 
veterans, their final decision generally is a permanent and total 
rating.
    That being said, temporary total disability ratings serve an 
important and practical purpose for many veterans. The determination 
for temporary total disability ratings are governed by the provisions 
of 38 C.F.R. Sec.  4.29, Ratings for service-connected disabilities 
requiring hospital treatment or observation, and 38 C.F.R. Sec.  4.30, 
Convalescent ratings. Temporary increases to VA disability ratings in 
accordance with the provisions of Paragraphs 29 and 30 are simple 
adjustments to running compensation awards that can be accomplished by 
employees with a minimum of training. Temporary increases to 
compensation Paragraph 29 are determined by the verified dates of 
hospitalization. Meanwhile, adjustments under the provisions of 
Paragraph 30 are established by rating action based on available 
medical information. In each case, the dates of entitlement are clearly 
indicated, and with only a small amount of attention to detail, there 
should be no significant errors.
    In January 2011, the VA Office of the Inspector General (OIG) 
published a report entitled ``Veterans Benefits Administration, Audit 
of 100 Percent Disability Evaluations'' (Report #: 09-03359-71, January 
24, 2011). In that report, the OIG examined approximately 181,000 
veterans claims rated with a total disability. Of that number, 
approximately 11,800 (reported as 43 percent of 27,500 claims that were 
determined to have errors) of those claims were for temporary total 
disability that the OIG determined contained errors. OIG concluded that 
this had led to overpayments of nearly $943 million with a potential 
overpayment of approximately $1.1 billion in the next five years. 
Unfortunately, the OIG report fails to address the cost of the loss of 
benefits when veterans with total disabilities were underpaid.
    PVA has also reviewed the findings of the recent report 
``Inspection of the VA Regional Office (VARO), Anchorage, Alaska 
(Report #: 12-02089-60, January 3, 2013) from the VA Office of the 
Inspector General (OIG). In the report, the OIG concluded that the 
Anchorage VARO lacked effective controls and accuracy in processing 
some disability claims. Specifically, 50 percent of the 30 temporary 
total disability evaluations reviewed were inaccurate. The OIG 
attributed these errors to staff that did not establish controls to 
monitor proposed reductions, or schedule future medical reexaminations 
as required to determine whether to continue these evaluations.
    The remaining errors identified in the Anchorage report for 
processing temporary total disability evaluations involved Veterans 
Service Center staff not:

    <bullet>  Scheduling routine future medical reexaminations as 
required,
    <bullet>  Requesting the necessary medical examination, and
    <bullet>  Timely scheduling hearings for veterans to present 
evidence in response to proposals to reduce their benefits.

    PVA is especially troubled by the fact that these findings are not 
substantially different from those included in the OIG report from 
January 2011.
    Unfortunately, the overriding concern emphasized by the OIG in both 
reports is the increased risk of paying unnecessary compensation 
benefits. In the most egregious case outlined in the Anchorage report, 
the VARO staff did not schedule a medical reexamination to evaluate a 
veteran's breast cancer. However, VA medical records showed the veteran 
had completed treatment, which should have resulted in a reduction in 
benefits. Because a follow-up medical reexamination was not scheduled, 
VA continued processing monthly benefits for temporary total disability 
and ultimately overpaid the veteran $96,135 over a period of 5 years 
and 11 months. The report from January 2011 outlined occurrences that 
were far worse than that scenario.
    PVA is concerned that this issue is being framed as wasteful 
spending on the part of VA. While we do not dispute the findings of the 
OIG report regarding overpayment of compensation under the rules for 
temporary total disability ratings, we believe the Committee should 
similarly examine the VA's failure to provide these benefits in a 
timely manner or decisions to not grant the maximum entitlement. Too 
often, an individual can wait for months while convalescing to receive 
the increase to his or her compensation for temporary total disability. 
This delay in payment of benefits can put a serious financial strain on 
a veteran who might be unable to work during that convalescence period. 
In fact, the OIG identified a case where the VARO staff did not grant a 
veteran entitlement to an additional special monthly benefit based on 
evaluations of multiple disabilities, as required. As a result, VA 
underpaid the veteran a total of $19,220 over a period of 5 years and 1 
month.
    Documentation of major discrepancies in determinations for 
temporary total disability indicates that much larger problems 
apparently exist in training and evaluation. The discovery of such 
fundamental and egregious errors that have been ongoing for a ten year 
period can only be construed as an indictment of a failed training 
program and failed management practices. If VA employees cannot 
successfully perform the most basic claims processing functions, what 
should we expect when they engage the more complex aspects?
    First line supervisors must be capable of evaluating the skills and 
needs of their subordinates, but responsibility cannot stop there. Mid-
level and higher management also must bear part of the responsibility. 
From our perspective, we see front line VA employees that are beaten 
down by their supervisors under the guise of quality control. STAR 
reviews, and similar measures, are constantly in pursuit of errors in 
an effort to improve overall quality. Unfortunately, the result all too 
often is an intensified focus on the process, and not the outcome.
    Mr. Chairman, we would like to thank you once again for allowing us 
to address this issue. We hope that by highlighting this issue, VA will 
make meaningful reforms to ensure that errors are corrected, that 
appropriate steps are taken when processing temporary total disability 
claims, and that veterans receive the correct benefits in a timely 
manner.
    PVA would be pleased to take any questions for the record.

Information Required by Rule XI 2(g)(4) of the House of Representatives
    Pursuant to Rule XI 2(g)(4) of the House of Representatives, the 
following information is provided regarding federal grants and 
contracts.
                            Fiscal Year 2013
    No federal grants or contracts received.
                            Fiscal Year 2012
    No federal grants or contracts received.
                            Fiscal Year 2011
    Court of Appeals for Veterans Claims, administered by the Legal 
Services Corporation--National Veterans Legal Services Program-- 
$262,787.

                                  <all>

</pre></body></html>
